<html>
<title> - LEGISLATIVE HEARING ON H.R. 104, THE REALIZE AMERICA'S MARITIME PROMISE (RAMP) ACT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
              LEGISLATIVE HEARING ON H.R. 104, THE REALIZE
                 AMERICA'S MARITIME PROMISE (RAMP) ACT

=======================================================================

                                (112-44)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 8, 2011

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation



                  U.S. GOVERNMENT PRINTING OFFICE
67-286                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a8cfd8c7e8cbdddbdcc0cdc4d886cbc7c586">[email&#160;protected]</a>  


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey        Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
FRANK C. GUINTA, New Hampshire       RUSS CARNAHAN, Missouri
RANDY HULTGREN, Illinois             GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 HEATH SHULER, North Carolina
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         LAURA RICHARDSON, California
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
JEFFREY M. LANDRY, Louisiana         DONNA F. EDWARDS, Maryland
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
Tennessee

                                  (ii)

  
?

            Subcommittee on Water Resources and Environment

                       BOB GIBBS, Ohio, Chairman

DON YOUNG, Alaska                    TIMOTHY H. BISHOP, New York
JOHN J. DUNCAN, Jr., Tennessee       JERRY F. COSTELLO, Illinois
GARY G. MILLER, California           ELEANOR HOLMES NORTON, District of 
TIMOTHY V. JOHNSON, Illinois         Columbia
BILL SHUSTER, Pennsylvania           RUSS CARNAHAN, Missouri
SHELLEY MOORE CAPITO, West Virginia  DONNA F. EDWARDS, Maryland
CANDICE S. MILLER, Michigan          CORRINE BROWN, Florida
DUNCAN HUNTER, California            BOB FILNER, California
ANDY HARRIS, Maryland                EDDIE BERNICE JOHNSON, Texas
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
JAIME HERRERA BEUTLER, Washington,   GRACE F. NAPOLITANO, California
Vice Chair                           JASON ALTMIRE, Pennsylvania
CHIP CRAVAACK, Minnesota             STEVE COHEN, Tennessee
LARRY BUCSHON, Indiana               LAURA RICHARDSON, California
JEFFREY M. LANDRY, Louisiana         MAZIE K. HIRONO, Hawaii
JEFF DENHAM, California              NICK J. RAHALL II, West Virginia
JAMES LANKFORD, Oklahoma               (Ex Officio)
REID J. RIBBLE, Wisconsin
JOHN L. MICA, Florida (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii
H.R. 104, a Bill to ensure that amounts credited to the Harbor 
  Maintenance Trust Fund are used for harbor maintenance.........   xii
H.R. 104 Fact Sheet..............................................    xv

                               TESTIMONY
                               Panel One

Boustany, Hon. Charles W., Jr., a Representative in Congress from 
  the State of Louisiana.........................................    34

                               Panel Two

Brady, Bonnie, Executive Director, Long Island Commercial Fishing 
  Association....................................................    44
LaGrange, Gary P., President and CEO, Port of New Orleans........    44
Weakley, James H.I., President, Lake Carriers' Association.......    44

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Napolitano, Hon. Grace F., of California.........................    59

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Boustany, Hon. Charles W., Jr....................................    61
Brady, Bonnie....................................................    64
LaGrange, Gary P.................................................    66
Weakley, James H.I...............................................    70

                       SUBMISSIONS FOR THE RECORD

Bishop, Hon. Timothy H., a Representative in Congress from the 
  State of New York, request to submit the following into the 
  record: Letter in support of H.R. 104 from Hon. Joe Courtney, a 
  Representative in Congress from the State of Connecticut, July 
  8, 2011; and statement from Chuck May, Chair Pro Tem, Great 
  Lakes Small Harbors Coalition..................................    30
Boustany, Hon. Charles W., Jr., a Representative in Congress from 
  the State of Louisiana, request to submit a letter in support 
  of H.R. 104 from the following Senator and Representatives from 
  Louisiana: Sen. Mary L. Landrieu, Hon. Rodney Alexander, Hon. 
  Charles W. Boustany, Jr., Hon. Bill Cassidy, Hon. John Fleming, 
  Hon. Cedric L. Richmond, and Hon. Steve Scalise, July 8, 2011..    37
Gibbs, Hon. Bob, a Representative in Congress from the State of 
  Ohio, request to submit the following into the record:

    Letters in support of H.R. 104 from Leonard Blackham, 
      Commissioner, Utah Department of Agriculture and Food, and 
      President of NASDA; Jeff Moseley, President and CEO, 
      Greater Houston Partnership; Charles T. Carroll, Jr., of 
      the National Association of Waterfront Employers; Barry W. 
      Holliday, Chairman, Harbor Maintenance Trust Fund Fairness 
      Coalition; Ford B. West, President, The Fertilizer 
      Institute; Hon. Nikki R. Haley, Governor of South Carolina; 
      and Brian Pallasch and Marco Giamberardino, on behalf of 
      the Water Resources Coalition..............................     5
    Statement of the American Society of Civil Engineers; 
      testimony of Kurt J. Nagle, President and CEO, American 
      Association of Port Authorities; and testimony of William 
      J. Rase III, Port Director, Lake Charles Harbor and 
      Terminal District..........................................    18

                        ADDITIONS TO THE RECORD

Big River Coalition, Sean M. Duffy, Sr., Big River Coalition 
  Administrator, statement.......................................    86
Louisiana Department of Agriculture and Forestry, Mike Strain, 
  D.V.M., Commissioner, letter, July 1, 2011.....................    88
The International Propeller Club of the United States, R. Wade 
  Wetherington, International President, letter, August 2, 2011..    90

[GRAPHIC] [TIFF OMITTED] T7286.001

[GRAPHIC] [TIFF OMITTED] T7286.002

[GRAPHIC] [TIFF OMITTED] T7286.003

[GRAPHIC] [TIFF OMITTED] T7286.004

[GRAPHIC] [TIFF OMITTED] T7286.005

[GRAPHIC] [TIFF OMITTED] T7286.006

[GRAPHIC] [TIFF OMITTED] T7286.007

[GRAPHIC] [TIFF OMITTED] T7286.008

[GRAPHIC] [TIFF OMITTED] T7286.009



                    LEGISLATIVE HEARING ON H.R. 104,
                 THE REALIZE AMERICA'S MARITIME PROMISE
                               (RAMP) ACT

                              ----------                              


                          FRIDAY, JULY 8, 2011

                  House of Representatives,
                    Subcommittee on Water Resources
                                   and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:06 a.m., in 
room 2167, Rayburn House Office Building, Hon. Bob Gibbs 
(Chairman of the subcommittee) presiding.
    Mr. Gibbs. Welcome. The Subcommittee on Water Resources and 
Environment will come to order. Today, we will have a 
legislative hearing on H.R. 104, Realize America's Maritime 
Promise Act of 2011. This hearing will give Members a chance to 
hear and review the challenges and opportunities facing 
America's navigation system, the current and future roles 
played by our ports and waterways, and Mr. Boustany's 
legislation.
    Ninety-five percent of the Nation's imports and exports go 
through the Nation's ports. Our integrated system of highways, 
railroads, airways, and waterways has efficiently moved freight 
in this Nation. But as we enter a new era of increased trade, 
our navigation systems have to keep pace. If not, this will 
ultimately lead to further delays in getting the Nation's 
economy back on its feet.
    In May 2010, the President proposed an export initiative 
that aims to double the Nation's exports over the next 5 years. 
However, with the Corps of Engineers navigation budget slashed 
by 22 percent over the previous 5 years, and the President only 
requesting $691 million from the Harbor Maintenance Trust Fund, 
the export initiative will not be a success. Only if our ports 
and waterways are at their authorized depths and widths will 
products be able to move to their overseas destinations in an 
efficient and economical manner.
    Since only 10 of the Nation's largest ports are at their 
authorized depths and widths, the President's budget does 
nothing to ensure our competitiveness in world markets. Modern 
ports and waterways are critical in keeping the U.S. 
manufacturers and producers competitive in the world markets. 
For instance, America's farmers, like the rest of the economy, 
depend on the modern and efficient waterways and ports to get 
the products to market. Improved transportation systems in 
South America have allowed South American farmers to keep their 
costs low enough to underbid U.S. green farmers for customers 
located in this country.
    With an outdated navigation system, transportation costs 
will increase and goods transported by water may switch to 
other congested modes of transportation. With today's 
overcrowded highways, like the I-95 corridor, we should be 
looking to water transportation to shoulder more of the load. 
Unless the issue of channel maintenance is addressed, the 
reliability and responsiveness of the entire intermodal system 
will slow economic growth and threaten national security.
    Thankfully, Congressman Charles Boustany from Louisiana 
introduced H.R. 104, the Realize America Maritime Promise 
(RAMP) Act earlier this Congress. His legislation, of which I 
was proud to be the 100th cosponsor, simply ties the Harbor 
Maintenance Trust Fund revenue to expenditures. It would 
require the total budget resources of expenditures for the 
trust fund for harbor maintenance programs to equal the level 
of receipts plus the interest credited to the trust fund for 
that fiscal year. The Airports and Highways Trust Fund operates 
in a similar manner.
    The RAMP Act is able to achieve these goals by declaring 
that it shall be out of order in the House of Representatives 
or the Senate to consider any bill, joint resolution, 
amendment, motion, or conference report, that would cause the 
total budget resources for the fund in a fiscal year for harbor 
maintenance programs to be less than the level of receipts, 
plus interest credited to the trust fund, for that fiscal year.
    Currently, the trust fund has been raising about $1.3 
billion a year. And in this proposed budget, less than $830 
million will be spent in the Harbor Maintenance Trust Fund for 
dredging. So that is an example we need to spend it all for 
dredging.
    I would like to welcome our witnesses today. At this time, 
I recognize our ranking member, Mr. Bishop, for any remarks he 
would like to make.
    Mr. Bishop. Thank you, Mr. Chairman, and thank you for 
holding this hearing on the growing water infrastructure needs 
and challenges facing our Nation. This hearing highlights just 
one small facet of a much larger issue: how this Nation will 
ensure that its water infrastructure assets remain safe, 
reliable, and efficient to address our current and future 
needs.
    Over the past few years, this subcommittee has held hearing 
after hearing on the declining condition of our Nation's water 
transportation corridors, our levees and flood walls, and our 
Nation's wastewater infrastructure. Countless witnesses have 
come in here telling us that our water-related infrastructure 
is on the brink of failure, and of the ensuing adverse impacts 
to health, safety, prosperity, and quality of life should one 
of these systems fail.
    We have all witnessed stories on the tremendous impacts to 
lives and livelihoods that result from water infrastructure 
failures. In just the past decade, we have impacts ranging from 
the loss of over 700 lives from multiple levee failures in the 
city of New Orleans, to the recent loss of two lives in 
relation to a Tennessee wastewater treatment plant failure. We 
have also witnessed how the failure of large water mains in 
suburban Maryland can turn streets into rivers and disrupt 
homes and businesses for weeks afterward.
    The impact of neglect on navigation systems is equally as 
troublesome. In just the past decade, the Corps has had 
multiple emergency closures of navigation locks on almost every 
river system to address infrastructure deterioration. These 
unscheduled closures result in significant impacts to the 
movement of goods and services, as well as impacts shippers and 
customers alike in terms of higher costs.
    Similarly, the lack of available maintenance dredging funds 
has resulted in reduced depths at many major port facilities 
and has all but passed over the dredging needs of smaller ports 
such as Lake Montauk in my congressional district. Fortunately 
for the businesses and industries that rely on Lake Montauk, 
the story is hopeful, because the Corps was able to identify 
funding to remove over 16,000 cubic yards of material from the 
inlet later this fall. However, as Ms. Bonnie Brady will later 
testify, not all small harbors were as lucky.
    It would seem apparent, then, that underfunding the mission 
of the Corps of Engineers is shortsighted for many reasons. 
First, it puts our families and communities at an increased 
risk of flooding or damage from coastal storms. Second, it has 
a substantial negative impact on local economies and the bottom 
line of big industries and small businesses alike. Third, it 
delays the potential public and environmental health benefits 
that come from environmental restoration projects. Finally, it 
places this Nation on an unsustainable path where it is forced 
to rely on outdated and failing infrastructure to keep the 
Nation going.
    Yet in the first 6 months of the 112th Congress, the new 
House majority has put forward several legislative proposals to 
cut the funding for the Corps to levels not seen since 2003. 
The most aggressive proposal included as part of H.R. 1 would 
have cut over $500 million, or approximately 10 percent, from 
an already strained Corps budget and can only result in 
increased delay in carrying out vital Corps projects and 
increased reliance on using Band-Aids to remedy critical 
infrastructure maintenance issues.
    Similarly, next week the House will consider the Energy and 
Water Appropriations bill for fiscal year 2012, which further 
reduces the level of funding for the Corps by 11\1/2\ percent, 
including a remarkable cut of 20\1/2\ percent to the Corps 
construction account and an additional 38.2 percent reduction 
for the Corps work along the Mississippi River. Collectively, 
for the hundreds of Corps projects around the country, these 
reductions in funding will result in growing deficiency in 
maintenance that will continue to expand until it becomes an 
emergency or fails at a critical moment.
    I am glad we are having this conversation today because it 
allows us to highlight one area of the critical backlog of 
Corps projects; that is, the backlog of maintenance dredging 
needs. While I am a strong supporter of using harbor 
maintenance receipts for their intended purposes, I want to 
remind my colleagues of the context in which we are having this 
conversation. If the intent of this hearings is to check the 
box and say we are serious about addressing the backlog of 
maintenance dredging needs, that is one point. However, what 
about the backlog in other maintenance work that needs to be 
carried out? Similarly, what about the backlog in authorized 
construction projects or proposed studies for new Corps 
projects, or about the backlog in clean water-related 
infrastructure?
    I hope today's hearing marks a subtle shift in recognizing 
the valuable work that the Corps carries out for our 
communities, for our economies, and for our Nation as a whole. 
If that is the case, then I hope that my colleagues will be 
similarly supportive in ensuring the adequacy, safety, and 
reliability of all of our water infrastructure investment 
programs. If we are serious about job creation, which I hope we 
are, then we should look no further than the proven track 
record for job creation that comes from investing in our 
Nation's infrastructure.
    I yield back the balance of my time.
    Mr. Gibbs. Thank you.
    Because of voting this morning and our time restraints, if 
our other Members have opening statements, you can submit those 
for the written record.
    At this time I ask unanimous consent that the following be 
entered into the record. We have letters of support for H.R. 
104 from Leonard Blackham, Commissioner of the Utah Department 
of Agriculture and Food, and president of NASDA; Jeff Moseley, 
president and CEO of the Greater Houston Partnership; Charles 
Carroll, Jr., of the National Association of Waterfront 
Employers; Barry Holliday on behalf of the Harbor Maintenance 
Trust Fund Fairness Coalition; Ford West of The Fertilizer 
Institute; the Honorable Nikki Haley, Governor of South 
Carolina; and the Water Resources Coalition. Those are letters 
in support.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7286.010
    
    [GRAPHIC] [TIFF OMITTED] T7286.011
    
    [GRAPHIC] [TIFF OMITTED] T7286.012
    
    [GRAPHIC] [TIFF OMITTED] T7286.013
    
    [GRAPHIC] [TIFF OMITTED] T7286.014
    
    [GRAPHIC] [TIFF OMITTED] T7286.015
    
    [GRAPHIC] [TIFF OMITTED] T7286.016
    
    [GRAPHIC] [TIFF OMITTED] T7286.017
    
    [GRAPHIC] [TIFF OMITTED] T7286.018
    
    [GRAPHIC] [TIFF OMITTED] T7286.019
    
    [GRAPHIC] [TIFF OMITTED] T7286.020
    
    [GRAPHIC] [TIFF OMITTED] T7286.021
    
    Mr. Gibbs. I also ask unanimous consent to include the 
written testimony from the American Society of Civil Engineers; 
Kurt Nagle of the American Association of Port Authorities; and 
William Rase of Port of Lake Charles, to be included in the 
record.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7286.022
    
    [GRAPHIC] [TIFF OMITTED] T7286.023
    
    [GRAPHIC] [TIFF OMITTED] T7286.024
    
    [GRAPHIC] [TIFF OMITTED] T7286.025
    
    [GRAPHIC] [TIFF OMITTED] T7286.026
    
    [GRAPHIC] [TIFF OMITTED] T7286.027
    
    [GRAPHIC] [TIFF OMITTED] T7286.028
    
    [GRAPHIC] [TIFF OMITTED] T7286.029
    
    [GRAPHIC] [TIFF OMITTED] T7286.030
    
    [GRAPHIC] [TIFF OMITTED] T7286.031
    
    [GRAPHIC] [TIFF OMITTED] T7286.032
    
    Mr. Bishop. Mr. Chairman, I ask unanimous consent to enter 
into the record a statement from the Honorable Joe Courtney of 
Connecticut, who joins Mr. Boustany as the primary sponsor of 
H.R. 104, and a statement from the Great Lakes Small Harbors 
Coalition.
    Mr. Gibbs. So ordered. All those will be put in the record.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7286.033
    
    [GRAPHIC] [TIFF OMITTED] T7286.034
    
    [GRAPHIC] [TIFF OMITTED] T7286.035
    
    [GRAPHIC] [TIFF OMITTED] T7286.036
    
    Mr. Gibbs. At this time, our first panel, we have 
Congressman Charles Boustany of Louisiana, the sponsor of H.R. 
104. Welcome.

       TESTIMONY OF THE HON. CHARLES W. BOUSTANY, JR., A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF LOUISIANA

    Dr. Boustany. Thank you, Chairman Gibbs and Ranking Member 
Bishop. I want to thank you all and our colleagues on this 
subcommittee for giving me the privilege of testifying in front 
of you today on H.R. 104. I also want to thank Chairman Mica 
for working with me on this bill. The work started early in the 
last Congress, and we have continued to move forward with this. 
I also want to single out John Anderson, the staff director, 
and Geoff Bowman, who have been really very, very helpful in 
this effort. Clearly, we have a lot of work to do in really 
dealing with and correcting this injustice affecting our 
maritime community.
    As a former member of the subcommittee, I am pleased to 
return and provide testimony regarding this issue not only in 
front of our Members here today but also some friends in the 
audience, Gary LaGrange from the Port of New Orleans, and a 
number of folks back from my district in Southwest Louisiana 
with the Port of Lake Charles.
    Since I served as vice chairman of the Water Resources 
Subcommittee in the 109th Congress, I have remained concerned 
about existing U.S. Army Corps of Engineers funding levels and 
the negative impact this has had on our Federal ports and 
harbors. Because most ports do not have naturally deep harbors, 
they must be regularly dredged and maintained to allow ships to 
move safely through Federal navigation channels.
    The Harbor Maintenance Trust Fund was created in 1986 to 
provide a stable source, a long-term source of funding to pay 
for maintenance costs for federally maintained harbors. Users 
of the ports and waterways would pay a small tariff on the 
goods passing through these waters to maintain this critical 
infrastructure. The revenues would then be placed in the trust 
fund, where they would be used promptly and exclusively for 
harbor maintenance costs. However, over the past decade, 
problems have developed with the mechanism of this.
    Because the revenues and expenditures of the trust fund are 
part of the overall budget, if all revenues are not spent the 
surplus now is used to help offset deficits in the rest of the 
general budget. As a result, we have a chronic underfunding of 
critical harbor maintenance needs. In fiscal year 2010, the 
harbor maintenance tax collected more than $1.2 billion from 
shippers for the purpose of funding dredging projects. However, 
only about half of dredging and related maintenance costs were 
allocated to the Corps operations and maintenance, and ports 
and harbors are unable to dredge to their authorized project 
dimensions.
    The uncommitted balance in the trust fund continues to 
grow. According to the House Appropriations Committee's Fiscal 
Year 2012 Energy and Water Development report, it will reach 
$6.1 billion by the beginning of 2012, even though there are 
significant harbor maintenance needs that are out there. 
According to the Corps own fiscal 2010 budget justification, 
full channel dimensions at America's top 59 harbors are 
maintained less than one-third of the time.
    There are many examples of dredging problems in ports and 
harbors across the Nation. In many cases, vessels must light 
load because of dredging shortfalls, and the economic 
implications are enormous. For every foot of draft, a ship is 
restricted, up to $1 million of cargo will sit on the dock as a 
result of this light loading.
    As a member of this subcommittee, I participated several 
years ago in a hearing in which U.S. Army Corps of Engineers 
Major General Carl Strock testified. I asked him the reason for 
the Corps constantly reprogramming funds from thewaterways in 
my district to the Mississippi River. This was alarming, 
because the Calcasieu River, which is in my district, is a 70-
mile channel serving the Port of Lake Charles--the 11th largest 
port in the United States. Based on studies done in 2006, the 
Port of Lake Charles generated over 31,000 jobs, contributed 
$765 million directly to the Federal Treasury, equal to the 
money allocated annually to the Corps for operations and 
maintenance projects.
    Despite these significant contributions to the national 
economy, the dredging budget of the Calcasieu project has 
historically been grossly underfunded. In fact, in my first 
year in office, the initial budget had zero allocated for 
dredging. We were able to bump that up to $9 million, but it 
wasn't near what we needed to get the job done.
    Between fiscal years 2003 and 2011, the appropriations for 
the Calcasieu ship channel have been about 51 percent of the 
amount needed to fully fund maintenance of the waterway. This 
example at the Port of Lake Charles is identical to examples 
all over the country, ports large and small, facing inadequate 
maintenance dredging, and oftentimes when an emergency arises, 
we further rob Peter to pay Paul. We have seen this recently on 
the Mississippi.
    As the conversation continued, General Strock stated to me 
that the Corps could dredge all federally maintained ports and 
waterways to the authorized depth and width should they get 
full allocation of the Harbor Maintenance Trust Fund that is 
collected annually, just as Congress intended when this harbor 
maintenance tax was created. This includes small harbors and 
ports, because basically the allocation would double and the 
money coming in annually is more than sufficient to take care 
of all of the federally authorized ports to meet their 
authorized depth and width. Keep in mind, General Strock 
referenced just future revenues, those incoming revenues, not 
the existing $6.1 billion surplus in the trust fund.
    So in order to address this situation, I introduced H.R. 
104. This strongly bipartisan bill seeks full access for our 
ports to the annual revenues deposited in the Harbor 
Maintenance Trust Fund, without creating mandatory spending, 
which would trigger budget implication. The RAMP Act, with 
bipartisan cosponsorship of 101, includes a guarantee requiring 
the total amount available for spending from the Harbor 
Maintenance Trust Fund each year be equal to the trust fund 
receipts, plus interest, as annually estimated by the 
President's budget.
    If an appropriations bill spending trust fund revenue is 
brought to the House or Senate floor not meeting this 
requirement, any Member would be able to make a point of order 
against it and the bill would not be allowed to be considered 
in that form.
    While the intent of the RAMP Act is to increase harbor 
maintenance and spending, it does not make increased mandatory 
spending. The Congressional Budget Office has confirmed the 
bill does not have any scoring impact. That is because of the 
way this bill has been written.
    Responsible for moving more than 99 percent of the 
country's overseas cargo, U.S. ports and waterways handle more 
than 2.5 billion tons of domestic and international trade 
annually, and the volume is projected to double within the next 
15 years, especially after the expansion of the Panama Canal.
    In 2007, there were 13.3 million port-related jobs, 9 
percent of all the jobs in the United States, accounting for 
$649 billion in personal income. A $1 billion increase in 
exports creates an estimated 15,000 new jobs. And that is just 
what this bill is intended to do: strengthen our 
infrastructure, create jobs, double our exports, as the 
President wants to do, and stimulate our economy.
    America's deep-draft navigation system is at acrossroad. 
Our ability to support continuing growth in trade hinges on 
critical channel maintenance at our ports. I urge the 
subcommittee to use this unique opportunity, this bipartisan 
opportunity, to make changes needed and pass the RAMP Act. 
Future port dimensions affecting jobs, trade, the economy, and 
our national defense, cannot be compromised. And that is why I 
urge passage.
    Again, thank you all for allowing me to testify. I will be 
happy to take any questions from the subcommittee.
    Mr. Gibbs. Before we do questions, we have got to do a 
little housekeeping here. I would like to ask unanimous consent 
that I be authorized to declare a recess during today's markup, 
pursuant to rule 1(a)1 of the rules of the Committee on 
Transportation and Infrastructure.
    Is there objection? Hearing none, so ordered.
    Just an FYI, they are calling votes here shortly and we 
will have to recess for a series of votes--the only series 
today. We will come back after votes at around 12:30, 
approximately.
    Dr. Boustany. Mr. Chairman, I have a letter. This is from 
the Louisiana delegation. I ask it be made part of the record.
    Mr. Gibbs. So ordered.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7286.037
    
    [GRAPHIC] [TIFF OMITTED] T7286.038
    
    Mr. Gibbs. I yield if there are any questions.
    Mr. Duncan. Well, Mr. Chairman, I don't have any questions. 
I do want to say during the 12 years that we had control of the 
Congress in the mid-nineties and early years of this decade, I 
chaired the Aviation Subcommittee for 6 years, and then this 
subcommittee, the Water Resources and Environment Subcommittee 
for 6 years. The last 2 years chairing this subcommittee, 
Congressman Boustany was my vice chairman and was an 
outstanding Member.
    And I am pleased to see his continuing good work on this 
legislation. It is very, very important. Very few people in 
this country really know how important this work is to our 
entire Nation and our entire economy, and other developed 
nations. And even some developing nations are spending more 
doing these types of things and taking better care of their 
harbors than we are.
    I am pleased that we were able to include this, basically, 
in the bill that we unveiled yesterday. It is good legislation. 
And, really, the historic predecessor of this full committee, 
one of the original committees in the Congress, was the Rivers 
and Harbors Subcommittee--Rivers and Harbors Committee that led 
to the Public Works and Transportation Committee and now the 
Transportation and Infrastructure Committee.
    So I support this legislation and I think it is something 
that all Members can support.
    I yield back.
    Mr. Gibbs. Representative Bishop.
    Mr. Bishop. Thank you, Mr. Chairman.
    Mr. Boustany, thank you very much for your leadership on 
this issue. As you know, I am a cosponsor of the bill, and I 
very much hope we can pass it out of the House and get it 
signed into law.
    I just have one concern, and it is a concern you and I have 
spoken about a little bit. That has to do with the enforcement 
mechanism. My concern is this. As you know, the rules package 
that passed out of the House of Representatives I think our 
first day of session--this session--removed the firewall that 
protected the Highway Trust Fund money. And my concern is that 
if we have taken that action, what level of assurance will we 
have that we will be able to wall off the Harbor Maintenance 
Trust Fund money to be used for the purposes that you want to 
use it for, I want to use it for, and not have it go to become 
a part of general fund revenue.
    So I guess my question is: What conversations have you had 
with your leadership, what assurances have you received from 
your leadership, or is this something that people like you and 
me and Mr. Duncan that are paying close attention to this are 
just going to have to stay on top of as we go forward?
    Dr. Boustany. A couple of points. One, the rules package 
pertained to the Highway Trust Fund, and that is because we got 
in difficulties in the past where general funds were having to 
be used, which is not the case with the Harbor Maintenance 
Trust Fund situation. I have had some conversations with senior 
staff in the Speaker's office as well as one preliminary 
discussion with the Speaker himself on this. We are going to 
continue to work through to make sure that the spirit of this 
bill and its enforcement mechanism is intact. It is too 
important.
    This is a unique opportunity for us to do something in a 
bipartisan way that is going to promote job growth. It doesn't 
add to the deficit. It is going to help us spur the economy. 
And it fits into the goals expressed by the President and many 
on both sides of the aisle that we have to expand trade. We 
have to have the infrastructure necessary to do so.
    So I am in continuing discussions, along with another 
colleague on the Ways and Means Committee, Pat Tiberi, who is 
also a cosponsor of the bill and very concerned. We will 
certainly keep you and the chairman of the subcommittee abreast 
of those discussions.
    Mr. Bishop. Thank you very much. I yield back.
    Mr. Gibbs. Representative Landry.
    Mr. Landry. Thank you, Mr. Chairman.
    I just wanted to recognize Congressman Boustany for 
bringing this issue to a head. This is what the American people 
want us to do. Whenever we as a Congress don't allocate money 
when that money is legally entitled to be spent on a particular 
project, we lose credibility. And that is why Congress' 
credibility is so low.
    It reminds me of a recent visit from the Army Corps of 
Engineers I had in my office when I first got elected and 
started serving. And I was talking to them about dredging the 
Mississippi River. And they said, ``Look, Congressman, if it 
makes you feel better, 7 of our 10 largest ports are under 
draft restrictions.'' I said, ``That doesn't make me feel 
better. You should be fired.'' If now 8 of our 10 largest ports 
in this country are under draft restriction, we are just 
impeding economic development in this country.
    So I just wanted to recognize him and let him know that 
this is the right way to go and I hope that this Congress not 
only does it for this particular fund but looks at all of the 
funds and the way that we are allocating money that the 
American people tag for specific projects. And I echo both 
Congressman Duncan and Congressman Boustany's point that this 
is a jobs bill.
    So, thank you, Mr. Chairman. I yield back.
    Mr. Gibbs. Representative Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chairman.
    Congressman Boustany, thank you very much for the bill. I 
really am impressed that this is something that is coming to 
the attention, again, of Congress because it has long been 
overdue, especially when I don't represent LA or Long Beach 
ports, but they are adjoining my district. And I have the 
Alameda Corridor going through my whole district for 
distribution of goods to the rest of the Nation. So I am very 
well aware of the issue.
    And I agree with my colleague about the dredging issue, 
that there has been a long overdue maintenance funding not 
available to the biggest ports. In fact, most of the ports in 
California are facing the same conditions.
    I would like to propose, and hopefully you will be 
interested in adding to your bill, a use of funds so it would 
read, ``to level of receipts plus interest collected at 
individual harbor in a fiscal year may be used only for harbor 
maintenance programs described in section 9505(c) of such code, 
at the harbor at which such receipts were collected.'' Of 
course, minus the admin fee.
    I would love to work with you on this because it is an 
issue of protecting those funds for those harbors that pay for 
it. Now, I don't mind whatever it is that needs to be done to 
help other harbors, but essentially the goods and the jobs are 
at stake; the goods movement in those areas.
    So I would love to hear your comments.
    Dr. Boustany. Based on my study of the issue and 
conversations with the Army Corps of Engineers and others, what 
we do know is that the incoming revenue, which ranges from $1.3 
to $1.6 billion a year, is more than sufficient to cover all 
the authorized projects where there is a Federal jurisdiction 
for operations and maintenance. On top of that, there is going 
to still be a surplus, based on current law, which would still 
go into the Harbor Maintenance Trust Fund.
    I think it is premature to start allocating the direction 
of funds. We have more than enough. And so I know there has 
been discussion about small ports versus large ports. I think 
it is in the best interest to move the bill as it is today, 
because it will basically make these funds available for all 
these federally authorized projects and we will still have some 
surplus. I think if we start trying to put additional language 
in, it may upset the apple cart and possibly hurt us in moving 
this legislation forward, especially as we look at the Senate.
    There is a companion bill in the Senate. I believe it has 
over 20 cosponsors. It has been introduced by Senator Levin and 
Senator Hutchison of Texas. We think there is a strong 
opportunity to move the bill in the Senate and get this into 
law.
    So my sense is that in looking at the politics of this, the 
policy, the bill as written has been carefully crafted to meet 
the needs now, going forward. And if we get into a future 
problem where there is a revenue issue, then perhaps it is 
something we can look at. But I would be reluctant to amend 
this at this time.
    Mrs. Napolitano. Would it be possible to get some figures 
from you in regard to your conversations with the Army Corps as 
to percentage of the ports that can be done with the money that 
is available, and what is the hang-up, why is it not being 
allocated to the ports to be able to get that dredging done? 
Because the drafting issue is a very real issue. If they are 
dragging their feet, then we need to look at how do we propose 
a change to help that happen so we don't lose our cargo to 
Canada or to Mexico.
    Dr. Boustany. This is a vital issue. We recently several 
weeks ago, on the Mississippi River--and I think you will hear 
testimony from the next panel--we had a large tanker that ran 
aground at great risk to our river pilots and shipping traffic. 
It threatened to shut down shipping on the Mississippi River, 
which would have a huge impact on the Nation's economy if that 
were to happen, considering 60 percent of our grain is exported 
down the Mississippi and through the Port of New Orleans.
    These are very important issues. And as I said in my 
testimony, this is a unique opportunity for us to come together 
in a bipartisan way to do something that is sensible; to 
correct a problem that has been in existence; to do, as my 
colleague from Louisiana just said, to use the money as it was 
intended to be used by Congress, going all the way back to 
1986.
    Mrs. Napolitano. I would love to be able to work with you, 
sir. And knowledge that Mexico is building a deepwater right 
down below California, it is a big threat to our economy.
    With that, I would yield back my time.
    Mr. Gibbs. Thank you.
    Representative Cravaack.
    Mr. Cravaack. Thank you, Mr. Chairman. And thank you, Mr. 
Boustany, for this great bill, because the Port of Duluth needs 
this bill. Whether you are a big port or a small port, I think 
it is all essential to our overall arching economy. What I 
think is just a travesty is that there are $6 billion in user 
fees theoretically sitting in the Harbor Trust Fund, and we 
have harbors that are not dredged the way they should be.
    The reason why I say it is theoretically is because these 
funds have been diverted out of this trust fund. And I echo Mr. 
Bishop's concerns in making sure that these moneys go to the 
ports that need them the most and allowing the Army Corps of 
Engineers to do their job.
    So I want to thank you very much for this. This is 
essential for the Port of Duluth. For each inch of silted in, 
the American laker fleet collectively per voyage leaves 8,000 
tons of Minnesota ore in Duluth. Just that one voyage can 
manufacture 6,000 cars. That is a heck of an economic impact in 
my State.
    So thank you very much for bringing it forth, and I yield 
back in support of this bill.
    Mr. Gibbs. Representative Hirono.
    Ms. Hirono. Thank you, Mr. Chairman.
    Good morning, Mr. Boustany. I, too, am a cosponsor of this 
legislation. And I did have a concern that with this additional 
money to ensure that every State that has harbors would get an 
equitable share of the additional funds available. And thank 
you for the clarification that these moneys will cover all 
federally authorized projects and still have a surplus.
    One of the ways that we authorize the work of the Army Corp 
is through the WRDA bill. That is the Water Resources 
Development Act. And that act authorizes activities of the Army 
Corps of Engineers and it directs the Corps to carry out 
projects, modifies their mandates on existing projects, and 
adjusts funding levels for projects, which of course includes 
what we are talking about today. We have not passed the WRDA 
bill since 2007. So I hope you agree with me that we should 
definitely look at passing a WRDA bill as soon as we can.
    Dr. Boustany. Well, as a former member of this 
subcommittee, I was involved with the last WRDA bill that was 
written and passed. Yes, it is important.
    Keep in mind that in the past, Congress was able to earmark 
funds. We don't earmark funds anymore. And so the advantage of 
this bill is it allows the Army Corps of Engineers access to 
the funds necessary to deal with the authorized projects 
without resorting to earmarks and without triggering a score by 
the Congressional Budget Office. So we tried to really 
carefully craft the language of the bill to meet the needs 
without getting into different types of problems such as 
earmarks and increasing deficit spending.
    So I think the bill came out as best we could hope. I urge 
its passage.
    Ms. Hirono. We probably could have another conversation 
about whether the authorized projects under WRDA would be 
considered earmarks. But that is for another day.
    I yield back. Thank you, Mr. Chairman.
    Mr. Gibbs. I think we have got time for one more question. 
FYI, they just called votes. So one more question, then we will 
go vote.
    Representative Ribble.
    Mr. Ribble. Representative Boustany, thanks for bringing 
this bill to us today. I appreciate your work on this. I was a 
proud cosponsor of the legislation and I think it is very well 
written.
    I represent Wisconsin's Eighth Congressional District, 
which includes the Port of Green Bay. The Port of Green Bay has 
lost over 2 feet of depth because of lack of dredging. I really 
hope that by protecting the fund that--as my colleague from 
Minnesota just alluded to the Port of Duluth--that the Great 
Lakes shipping lanes will be protected and we will finally see 
some improvement in commerce, we will see improvement in jobs. 
And based on today's job report, clearly this type of bill 
needs to pass, not just for this committee, but I would 
encourage you and the Members here to help get it passed 
through the House of Representatives and move it over to the 
Senate for full passage.
    I just want to commend you for your work on this. I think 
this is exactly the type of thing we ought to be doing more. So 
thank you very much.
    Dr. Boustany. Thank you.
    Mr. Duncan. Mr. Chairman, can I have a moment of personal 
privilege?
    We have a woman in the audience who probably knows more 
about this issue than anybody else, former head of the Federal 
Maritime Commission and a longtime Member of this Congress, a 
good Republican leader, Helen Bentley. It was an honor for me 
and privilege for me to serve with her for many, many years. I 
would just like to welcome Helen back to the committee here 
today.
    Thank you.
    Mr. Gibbs. Thank you.
    We have got time, Mr. Harris, for another question.
    Dr. Harris. Thank you very much. Thank you, Doctor, for 
bringing the bill.
    The Port of Baltimore is actually called the Helen Delich 
Bentley Port of Baltimore, obviously, an important economic 
driver in the State. I served 12 years on the committee that 
oversaw the port. It became clear that if we really want to 
create jobs and keep our manufacturing and our industrial base 
going, we have to keep our ports open.
    The Port of Baltimore is a key port for shipping of coal, 
for instance, a key energy component in the world economy 
today. As we know, the ships are getting larger and larger. The 
drafts are deeper and deeper. We have to do this. And we have 
to do it sooner rather than later.
    So thank you very much for introducing the bill. I am proud 
to be a cosponsor.
    Dr. Boustany. Thank you.
    Mr. Gibbs. Before we conclude this first panel, I would 
just like to interject and make everybody aware that this is a 
key time. We are 3 years out, the Panama Canal is supposed to 
be completed. And they are building new ships that handle more 
cargo. They are bigger. And we have probably got one, maybe 
two, ports currently that can handle these bigger ships.
    If we are going to increase our exports with the Panama 
Canal, this is essential that we get the bill passed and get 
the dredging done to handle those bigger ships.
    At this time, we are going to recess and I ask all Members 
to come back immediately after votes, or approximately 12:30, 
as we have another panel. We have got witnesses that have 
traveled from New Orleans and Long Island and elsewhere.
    We have got three witnesses on the next panel. We have a 
markup on H.R. 104. So come back at 12:30, please.
    [Recess.]
    Mr. Gibbs. The committee will reconvene.
    A little bit more housekeeping. I have been informed by 
legal counsel I have to do this again.
    I would like to ask for unanimous consent that I be 
authorized to declare recesses during today's markup pursuant 
to Rule 1(a)(i) of the rules of the Committee on Transportation 
and Infrastructure. Is there objection?
    Hearing none, so ordered.
    At this time, we will start our second panel. I will go 
ahead and introduce them: Mr. Gary LaGrange, president and CEO 
of the Port of New Orleans--welcome; Mr. James Weakley, 
president, Lake Carriers' Association; and Ms. Bonnie Brady, 
the executive director of Long Island Commercial Fishing 
Association.
    And I would recognize Ranking Member Bishop. I think he 
wants to make an introduction.
    Mr. Bishop. I just want to make a special welcome to 
Washington for one of my constituents, Bonnie Brady.
    She is the executive director of the Long Island Commercial 
Fishing Association. Her husband is a commercial fisherman 
fishing out of the Port of Montauk, which is the largest 
commercial fishing port in the State of New York. And hers is a 
voice that is listened to by policymakers at all levels of 
Government.
    And so, Bonnie, welcome. Welcome to our committee, and 
welcome to Washington.
    Mr. Gibbs. Thank you.
    We will start with Mr. LaGrange, who is president and CEO 
of the Port of New Orleans.
    Welcome.

 TESTIMONY OF GARY P. LAGRANGE, PRESIDENT AND CEO, PORT OF NEW 
    ORLEANS; JAMES H.I. WEAKLEY, PRESIDENT, LAKE CARRIERS' 
ASSOCIATION; AND BONNIE BRADY, EXECUTIVE DIRECTOR, LONG ISLAND 
                 COMMERCIAL FISHING ASSOCIATION

    Mr. LaGrange. Thank you, Mr. Chairman and members of the 
committee. We certainly appreciate the honor and the 
opportunity to testify before you today on what we think has 
become a very grave issue, particularly over the last 4 to 5 
months.
    As president and chief executive officer of the Port of New 
Orleans, I certainly, again, appreciate the opportunity to 
highlight the need for the passage of Congressman Boustany's 
Realize America's Maritime Promise Act, the RAMP Act.
    The Port of New Orleans and a majority of the ports 
throughout the United States supports the swift congressional 
passage of RAMP. And the reason for that being very simply a 
lot of what was stated earlier today in the first panel: the 
fact that a number of our ports, a majority number of our 
ports, are suffering the consequences from limited draft, 
limited tonnage, and basically not the free flow of commerce as 
we normally have it.
    We are seeing that happen right now on the Mississippi 
River. The Mississippi River, of course, connected, being the 
largest port system in the United States, from Baton Rouge to 
the mouth of river, not for Louisiana but for the entire 
country, connecting 30 States. And those 30 States including 
the corn growers, the coal miners, manufacturers. As 
Congressman Boustany said earlier, 60 percent of all of the 
grain in the United States is exported out of the Lower 
Mississippi River, and another 33 percent of all the 
petrochemical and petroleum for the United States comes into 
the Mississippi River.
    The draft has gone down from 45 feet to 43 feet on the 
order of the bar pilots, primarily because of the fact that 
there is simply no passage there anymore. With the high waters 
in early fall, there was an underfunding amount by the Army 
Corps of Engineers by about $40 million. We created a coalition 
known as the Big River Coalition, which now has over 100 
members. Created back in September of last year, that coalition 
consists of members from those 30 States who are affected by 
the inability to get their goods to foreign markets.
    So it is a huge, growing hue and cry, if you will, 
throughout America, throughout the United States, throughout 
mid-America and up the Ohio River Valley as far as Pittsburgh, 
crying about the inability for the lack of channel depth.
    The channel is restricted to 43 from its project depth of 
45 feet now. The New Orleans district is telling us that there 
is a possibility they could go low as 38 feet. The economic 
consequence of that--as I said, it is the largest port system 
in the United States. Six thousand ships a year come in, 6,000 
ships a year go out of the Mississippi River, 12,000 ships a 
year, roughly 500 million tons of cargo last year. Only the 
Yangtze River in China can even come close to comparing to 
that. It is larger than Rotterdam, Singapore, Shanghai, or any 
of the major international ports in the world.
    That said, we believe, again, that via that Mississippi 
River, with the Harbor Maintenance Trust Fund, which I remember 
like yesterday when it was passed in 1986--much to my chagrin, 
I remember it like yesterday--is something that we really are 
quite disappointed in the fact that the funds are only used at 
a rate of about 50 to 60 percent for their intended use, again, 
as stated earlier.
    Supposedly, a fictitious--as you stated earlier, 
Congressman Gibbs, about the funds, it is a fictitious balance 
of $5.6 billion. You are absolutely correct. Last year in 2010, 
$1.36 billion was collected, but only with a surplus of $535 
million left over at the end of the day.
    If those funds would be used on a year-in and year-out 
basis as intended originally, paid for in the ad valorem tax by 
the shippers and the importers who come into this country, if 
those funds were used for the proper reason for which you guys 
passed them for back in 1986, we wouldn't be sitting here today 
with the problems with OMB and with the Corps of Engineers that 
we have on a day-in and day-out basis, and the administration, 
for a lack of funding.
    And, unfortunately, it is a situation on the Lower 
Mississippi River where we average, to dredge that river, to 
keep the economy of the country, the Midwest and the Ohio River 
Valley going averages about $104 million a year. The amount 
that is funded on an annual basis is roughly $63 million to $65 
million a year. So you can see it is a shortfall.
    The Corps of Engineers has historically had to reprogram 
funds from other parts of the United States. That has gotten 
really old because their budgets are running askew. And so it 
is an issue that we have. Again, the RAMP Act would certainly 
rectify those issues and those problems.
    Finally, Mr. Chairman, along with the RAMP Act, because of 
the inland waterway system, because of the Pittsburghs, 
Cincinnatis, St. Louises, and Little Rocks and Memphises and 
Chicagos and Tulsa, Oklahomas, because of all those inland 
ports, we really need to look at the Inland Waterways Trust 
Fund, which I know you have as well, and thank you for that. 
And we need to address the capital development plan for keeping 
the locks and dams and those rivers navigable as well, in order 
that all of the farmers, the miners, and all of our other 
manufacturers throughout the hinterland of America and points 
in between can stay on track.
    So, again, thank you for the opportunity to testify today. 
It is a critical issue. It is an issue that is of an emergency 
nature right now. We have already lost 2 feet, and we simply 
can't stand to lose any more.
    Thank you.
    Mr. Gibbs. I thank you.
    Mr. Weakley, president of the Lake Carriers' Association, 
welcome.
    I am skipping around on you.
    Mr. Weakley. Yes, sir. I am hoping my PowerPoint will be 
brought up.
    Mr. Gibbs. OK.
    Ms. Brady, go ahead, and we will get our technical glitches 
fixed. Welcome.
    Ms. Brady. Mr. Chairman and members of the subcommittee, my 
name is Bonnie Brady, and I am here today representing the Long 
Island Commercial Fishing Association as its executive 
director. Our membership represents commercial fishermen from 
11 different gear groups at 15 ports throughout Long Island. I 
would like to thank you for the opportunity to present my 
comments before you and the subcommittee today.
    It is my understanding that H.R. 104, Realizing America's 
Maritime Promise, RAMP, Act, will allow funds gathered from 
import tariffs in the Harbor Maintenance Trust Fund to be used 
specifically for dredging and maintenance of U.S. ports, 
harbors, and waterways. It is also my understanding that, in 
the past, the funds in the HMTF were not always fully utilized 
in their original intent.
    Commercial fishing on Long Island is responsible for 99 
percent of New York's landed seafood catch. In 2009, that 
translated to over 34 million pounds of fish, shellfish, and 
crustaceans worth just over $49 million at the dock. With the 
standard economic multiplier of 4, that translates to an almost 
$200 million industry which helps to power the economic engine 
of hundreds of Long Island businesses.
    These mom and pop shops, whether it is a fishing boat, ice 
supplier, welder shop, or restaurant, are the very fabric which 
makes up the coastal communities of Long Island. Our Long 
Island coastal waterways and ports are our Metro and Beltway, 
and without properly maintained dredging, hundreds of local 
businesses and families are negatively impacted yearly on Long 
Island.
    Our own Congressman Bishop, from the First District, has 
done an admirable job to stay on top of dredging nightmares as 
they appear courtesy of Mother Nature, but, in some cases, by 
the time funding is secured for dredging, thousands of dollars 
in potential revenue are lost--lost through inability to land 
one's catch at the closest port for the best market price; lost 
through repairs necessary due to accidents involving hull and 
wheel issues, along with vessel groundings; and lost through 
pollution control costs from these groundings. Of course there 
is also the potential loss of life through accidents because of 
shoaling that can and has happened on Long Island. All of the 
above are unacceptable sequelae due to improper and inadequate 
maintenance.
    Just this year in Montauk, New York State's largest 
commercial fishing port and the 48th largest commercial fishing 
port in the Nation, we have had some of the most severe 
shoaling at the harbor's inlet in years. Instead of a 12-foot 
depth and a 150-foot-wide inlet, instead we have had barely a 
9-foot depth in some of the most traveled areas under the best 
of conditions. Add a northwest wind and low tide to the 
scenario and the depth shrinks to 6 feet.
    Several commercial boats have had to either pack in 
different States, due to Montauk's excessive shoaling, or wait 
up to 14 hours for the tide to be favorable in order for them 
to pack their fish. In some cases, the delay in shipping fish 
to Hunts Point has had dramatic consequences to the price of 
the catch, dropping from $1 a pound to 15 cents a pound. When 
are you landing sometimes in excess of 40,000 pounds of fish, 
it is basically the difference between a decent trip 
financially and what is referred to as a ``broker'' in 
commercial fishing parlance.
    Montauk's port is just one of many ports on Long Island 
that could benefit from H.R. 104. Other ports with excessive 
shoaling issues, such as Shinnecock and Moriches Inlet, would 
immediately benefit from well-maintained dredging for both the 
commercial and recreational fleet.
    Shinnecock used to be a major commercial fishing port to 
New York State, especially is in the summer months when squid 
schools nearby. Commercial fishing landings equaled $9.5 
million to Shinnecock in 2000. However, its often shoaled port 
with limited access during key summer catch months helped to 
further the burden on limited shoreside infrastructure 
businesses already reeling from increased State catch 
restrictions, increased fuel costs, and decreasing economic 
revenue.
    Even though Congressman Bishop accessed funding for 
dredging the Shinnecock in 2004 and 2010, a series of northeast 
storms continued to wreak havoc with dredging efforts. Boats 
that avoided Shinnecock to decrease the risk of grounding 
translated into less catch on the dock, which then dominoed 
into less ice, fuel, and box sales--the end result of which was 
to further plunge Shinnecock's shoreside businesses 
economically. By 2009, commercial fish revenue dropped by 
almost half to $5.3 million. It is my belief that a more 
continual maintenance dredging of Shinnecock Inlet could have 
made the difference.
    On behalf of Long Island's commercial fishermen, we applaud 
the House Subcommittee on Water Resources and Infrastructure's 
attempt to address these issues through H.R. 104. My thanks to 
the subcommittee for allowing me to express these views today, 
and I look forward to any questions from you or any other 
members of the subcommittee.
    Thank you.
    Mr. Gibbs. Thank you.
    Mr. Weakley, I think we are ready.
    Mr. Weakley. Thank you, Mr. Chairman.
    On behalf of Lake Carriers' Association and Great Lakes 
Maritime Task Force, I ask this subcommittee to pass H.R. 104 
without amendment. It is about trust in Government, jobs, and 
marine transportation. All are vital to America's future.
    Ships enable domestic and global trade. Unfortunately, our 
waterways, the very arteries of maritime infrastructure, have 
been neglected and are now restricting commerce. Our navigation 
channels clog with sediment, while only half of the taxes paid 
by maritime commerce to maintain them are used for this 
purpose.
    Half of the members of this subcommittee, including 
Chairman Gibbs and Ranking Member Bishop, have taken the first 
step to end the national dredging crisis by cosponsoring H.R. 
104. Thank you.
    Restoring trust in the Harbor Maintenance Trust Fund 
benefits all four of our Nation's coasts as well as the 
economies of inland States. California importers, Minnesota 
miners, New York fishermen, Mississippi River Basin farmers, 
Ohio River Basin manufacturers, and many others depend on the 
efficient waterborne transportation to receive goods, move 
product to markets, and expand our horizons.
    Our ports and the maritime industry keep America open for 
business. We do it by employing economies of scale--one laker 
can carry as much as 2,800 trucks--and the laws of physics, 
requiring less horsepower to move a ton of cargo. If trucks 
were as efficient, they would only need a lawnmower engine.
    A lack of dredging forces light loading. For every inch of 
depth lost, lakers forfeit 270 tons of cargo. For each inch 
silted in, per voyage the American laker fleet collectively 
leaves 8,000 tons of Minnesota ore in Duluth, enough to 
manufacture 6,000 cars; we leave behind enough Montana coal to 
produce electricity for Detroit for 3 hours; or we abandon 
enough Ohio limestone for 24 Pennsylvania homes.
    Tragically, lost draft is measured in feet. The impacts are 
systemwide. The inefficiency makes American products more 
expensive and exports jobs. Dunkirk, New York's port closed in 
2005 due to insufficient depth. More will follow.
    Similar problems exist on our other coasts. The Corps own 
statistics show that the authorized depth of federally 
maintained navigation channels is available across only half of 
its authorized width less than one-third of the time. And this 
performance is declining. Another Corps study estimated that 30 
percent of the 95,550 vessels calls at U.S. ports were limited 
by inadequate channels.
    Tributaries to the Great Lakes naturally deposit more than 
3.3 million cubic yards of sediment per year. However, never in 
the past decade has an administration proposed enough spending 
to remove it. Only twice have congressional adds achieved that 
mark.
    The need for maintenance dredging is dire. The payoff of 
harbor maintenance investment is great. Maritime commerce is 
paying enough into the trust fund to maintain the entire 
system, but little more than half of the fund's revenues are 
being used for this purpose. In 2010, maritime commerce and 
interest income provided almost $1.4 billion to the trust fund; 
however, only $828 million were expended. Most harbors still 
lost depth and width to the unrelenting deposition of sediment. 
The fund's surplus is almost $6 billion.
    H.R. 104 is the solution. Modeled after the Airport and 
Airways Trust Fund fix in 2000, it bases the annual trust fund 
expenditures on trust fund revenues. The bill shouldn't score 
or violate budget rules. It reduces the need for maintenance 
dredging earmarks. I respectfully urge you to pass H.R. 104 
without amendment. We need to revive our dying infrastructure 
with the angioplasty of dredging and sustain it with a healthy 
maintenance diet. It is a matter of trust.
    Thank you.
    Mr. Gibbs. Thank you.
    We will start our questions now. I will start off.
    Mr. LaGrange, the issue with the Panama Canal, I think in 
about 3 years, I think, it is going to be completed. What has 
to happen in the Port of New Orleans to access those bigger 
ships? Can you expound on that a little bit more?
    Mr. LaGrange. Well, the first thing we have to do is 
maintain the channel, the project depth that we have now, which 
is 45 feet. For the most part, there is a 2-foot overcut that 
happens. It is 47 feet. Two things will happen. You really need 
to get to 50 feet to access the post-Panamax-size ships. There 
are only three ports, to my knowledge, in the United States who 
can handle those size ships right now, and that is Baltimore, 
Virginia--Hampton Roads--and New York, but they have a bridge 
problem in New York, as you well know.
    So we would have to get to 50 feet. However, even 
maintaining at 47 feet, 45 feet, at the project depth would be 
a coup in itself because of transshipment. The lion's share of 
most of the cargo that comes through, according to four 
different studies that were done by Booz Allen Hamilton, 
Parsons Brinckerhoff, A.T. Kearney, and The NorthBridge Group, 
those studies all concur, collectively, that the 
transshipment--that 72 percent of all the cargo coming through 
the Panama Canal, incremental new cargo, will amount to about 
25 million TEUs or 25 million containers a year.
    Twenty million of those containers will go up to the east 
coast, primarily because that is where the consumers and the 
population are. However, 5 million will come to the gulf coast, 
and those 5 million that come to the gulf coast are huge.
    So, from a container standpoint, which is the primary 
benefactor of the Panama Canal, it needs to be dredged. Does it 
need to go to 50 feet? Not necessarily. But does it need to 
maintain and manifest itself at 47 to 45? For the sake of the 
corn growers, the coal exporters, the petrochemical and the 
petroleum industry, yes, sir.
    Mr. Gibbs. The recent rainfall we have had, which has 
been--I think we broke some records in my area. We shipped a 
lot of dirt down to the Lower Mississippi.
    Mr. LaGrange. Thank you.
    Mr. Gibbs. What is happening with that right now? My 
understanding is that it is actually one lane of traffic?
    Mr. LaGrange. Yes, sir. Our channel has gone from a 750-
foot width to barely 150 feet. Congressman Boustany alluded 
this morning to the fact that one carbon black oil tanker ran 
aground. That could have caused another--without sounding 
overzealous, it could have caused another Exxon Valdez 
incident. That is the last thing we need on the gulf coast. 
That is the last thing we need in our coastal marshes and 
estuaries.
    And the pilots are basically threading needles every time 
they take these huge ships in and out of there. It is one-way 
passage. It is reduced to 43 feet. And so the ships are coming 
in light-loaded now. They are not reaching the benefit of 
efficiency that they should be reached.
    And somebody in mid-America and up the Ohio River Valley is 
paying for it. There will come a point of no return, where the 
channel is going to have to be dredged or somebody is out of 
business.
    Mr. Gibbs. Mr. Weakley, in my State of Ohio, Cleveland and 
the Toledo ports need dredging, in a bad way. What is happening 
around--are we seeing a reduced tonnage coming out of the Great 
Lakes and into the Great Lakes on the shipping? What has 
happened to the Great Lakes shipping industry?
    Mr. Weakley. We are, sir. And we are continuing to see the 
squeeze. You are exactly right. The Port of Toledo and the Port 
of Cleveland are the two largest users of dredging, just 
because of natural deposition that takes place in those river 
systems into the ports.
    We are seeing light loading. In Cleveland, this spring 
there were some ships that used to be able to make that trade 
up the river to ArcelorMittal that simply stopped. They simply 
drew too much water, where they couldn't get up there even 
half-full. We see that disease starting to spread throughout 
the Great Lakes.
    And without more money to dredge and maintain the system, 
it is not just the big ports that are being impacted, it is the 
entire system. It really is an interconnected system.
    Mr. Gibbs. So what you are saying, if you have several of 
the ports, major ports, that can't function at the level they 
should, we are going to lose the shipping business, because 
there has to be viability to hit certain ports. This is a whole 
systems approach. And that is why the dredging is so important, 
that it is done at all these ports.
    And that is why I think there is such a strong argument why 
the full funding ought to be--revenue that comes in needs to go 
for the dredging. Because in the system if a link in the chain 
breaks, the system can collapse. And I think that is an 
important point you are trying to make, right?
    Mr. Weakley. Yes, sir. To reinforce your point, if you look 
at the St. Mary's River, where all that cargo is coming from 
the Lake Superior, upper lake ports and lower lake ports, it is 
not a port, but it is critical to the infrastructure and 
critical to all those ports below Lake Superior to get that 
cargo from up above.
    The Detroit-St. Clair River system, another critical 
connecting waterways. If that is not maintained, anything below 
that system gets shut down.
    Mr. Gibbs. Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman.
    And thank you to the panel.
    Let me start with a question for the whole panel regarding 
the issue of earmarks. And let me apologize for using a four-
letter word in polite company. But, historically, the Army 
Corps of Engineers budget has been 100 percent earmarked, about 
75 percent by the administration and about 25 percent by 
Congress.
    We are now in an earmark-free environment. And leaving 
aside the constitutional issues of who gets to decide how 
Federal dollars are allocated--I would ask each of you to 
respond--are you comfortable with leaving 100 percent of the 
decisions on how Corps funds are allocated to the 
administration? Or would you prefer to see at least some 
congressional involvement in directing Federal moneys to 
projects that are of significance to that particular 
congressional district?
    Mr. Weakley, why don't we start with you?
    Mr. Weakley. Yes, sir.
    That is part of the brilliance of H.R. 104, is there is no 
way to keep the administration and OMB or the Army Corps honest 
in expending the money for the purpose for which it is 
collected.
    Ideally, I think it is a shared responsibility. 
Constitutionally, I think, there is no question in my mind, at 
least, that Congress has the power of the purse. And I believe 
Congress, at least from the Great Lakes perspective, has had to 
step in to right the administration's wrong for misallocating 
those funds.
    I think the brilliance of the way H.R. 104 is structured is 
it reduces the probability or the possibility or, really, the 
likelihood that OMB will continue to game the system and 
neglect our ports and our infrastructures.
    Mr. Bishop. Mr. LaGrange?
    Mr. LaGrange. I totally concur, sir. You know, we are 
basically 0 for 4 in the batter's box from the administration 
standpoint. So we are putting all of our money in this hat, and 
we really think there should be a better balance. There is no 
question in our mind about it.
    Mr. Bishop. Thank you.
    Ms. Brady?
    Ms. Brady. Well, I think what I will say along the lines of 
diplomacy is, perhaps the administration, the OMB, have been 
just too busy to realize what is going on in the individual 
districts. And as the great democracy that we have, having 
constituents go to their congressional leaders first to tell 
them as issues appear, as we have done with you in the past, is 
really the best way to keep a pulse as to what is going on.
    Mr. Bishop. Thank you.
    The way I have always phrased that in the district is I 
just ask the question, who do you think is spending more time 
worrying about Lake Montauk Harbor, me or the director of OMB? 
I think I win that one.
    Let me ask another question for the panel. And, Mr. 
Weakley, I support H.R. 104. I am a cosponsor of it. I hope we 
pass it. I believe it is a step in the right direction.
    I don't know whether you were here before when Mr. Boustany 
was testifying, but I continue to worry about the enforcement 
mechanism because, technically, it doesn't necessarily increase 
the top line of the Army Corps of Engineers. The top line of 
the Army Corps of Engineers is set by the so-called 302(b) 
allocation. And what I am worried about is a scenario in which 
the Harbor Maintenance Trust Fund moneys are fully expended, or 
it would appear as if they were, but that expenditure is at the 
expense of other areas in the Corps.
    So, in other words, we will spend more money on operation 
and maintenance, more money on dredging, and less money on 
construction so as to satisfy the harbor maintenance transfer, 
if you will, but because we haven't increased top line of the 
Army Corps, other priorities of the Army Corps suffer.
    So I think this is an area where we are all going to have 
to be very careful. And one of the things that I worry about is 
the airport trust fund. The point of order that protects that 
trust fund has been waived many times by the Rules Committee, 
or it has not been enforced on the floor.
    So I just want to put that concern out there, that--I mean, 
I think we all have the same goal in mind here.
    Mr. Weakley. Yes, sir.
    Mr. Bishop. I just hope the enforcement mechanism is 
appropriate. Do you want to comment on that?
    Mr. Weakley. Well, sir, I share your concern. And, in fact, 
to add fuel to your fire, the administration hinted at looking 
at other uses for the Harbor Maintenance Trust Fund beyond even 
navigation. I think there have been some attempts at 
legislation to expand it to land-based or stuff beyond the Army 
Corps. So it is a very legitimate concern, and I share that.
    The reason I like the point-of-order mechanism is that it 
scores at zero.
    Mr. Bishop. Right.
    Mr. Weakley. I think it is more likely to pass. It doesn't 
put an additional burden on the debt. And it is my belief--and 
I could be wrong on this, sir--that since 2000, in the aviation 
community, those revenues have been balanced. So it seems to 
have worked.
    And on the Senate side, I think they are less prone to 
waive the point of orders than the House.
    Mr. Bishop. Thank you.
    I yield back. My time has expired. Thank you.
    Mr. Gibbs. Mr. Cravaack?
    Mr. Cravaack. Thank you, Mr. Chairman.
    Thank you all for coming here today on this very important 
issue since the Port of Duluth is in Minnesota. And we are very 
proud of that port, and we want to make sure she is up and 
ready to go.
    And I think that, as a freshman Congressman coming here 
from Minnesota, we are finding what is happening to the harbor 
trust fund is what I am finding endemic through Congress, where 
we have raided different funds and are using them for other 
things instead of using them for their primary intention, 
Social Security being one of them. But I really echo Mr. 
Bishop's concerns in ensuring that the moneys acquired by the 
trust fund are actually used for what their intended purposes 
are. And as long as I am in Congress, that will be under my 
microscope. So thank you for that.
    I think Mr. Weakley hit it directly when he said this is 
about jobs. This is most definitely a jobs issue. And we are 
not just talking the ones at the dock; we are talking 
throughout the industry.
    Maritime transportation, like I said, is critical to my 
State. And we are very fortunate to have the Port of Duluth in 
my district, which is heavily involved in transporting taconite 
throughout the steel mills throughout the country. And this is 
a huge issue in regards to the--taconite is not exactly light. 
We leave a lot of taconite on the shore because we can't get 
the ships out. So I share that, and I will be right on top of 
that as long as I am here.
    However, the dredging of our ports and waterways simply 
cannot be looked at as a parochial issue--that is, something 
that is only important for the Great Lakes--but also for the 
country, as well. And make no mistake, harbor maintenance is 
truly a national issue in regards to competitiveness, as well, 
and getting our product out and under way to ports on foreign 
shores.
    The more we do to decrease the transportation costs, as you 
have brought out, Mr. Weakley, also creates a better bottom 
line for us, as well. So, with exports, we can better compete 
with other nations. So this is also not only of interest to the 
United States, but in a global issue as well.
    So, Mr. Weakley, as you said in regards to the jobs, what 
do you think is the impact of lost productivity in terms of 
American jobs and American prosperity? Can you actually coin 
that for us?
    Mr. Weakley. Well, sir, I can't put a number on it, but I 
can tell you we are exporting jobs. And if you want to export 
more jobs, make sure that we continue to make the system less 
efficient. If we are going to compete in a global marketplace, 
we need to move products and raw materials internally 
efficiently so we can ship them to New Orleans so he can export 
them to the world. So I think there is no greater risk to the 
American worker, particularly the manufacturer, the farmer, the 
miner, than making the system as inefficient as it is.
    Much to your credit, Congressman, maybe it is your 
experience as a naval officer, you certainly understand the 
tons per inch immersion and the concepts of controlling depth. 
And, to your credit again, it is not just the Port of Duluth, 
but it is the miners up in the range, as you just mentioned, 
who have a very vested interest, not just in the port, but if 
we are going to ship coal to Congressman Ribble's district we 
have to go through the St. Mary's, and that is our controlling 
depth.
    So we appreciate your support not just for the Superior but 
for the entire Great Lakes system. And we are blessed to have 
you serve us.
    Mr. Cravaack. Thank you for those kind comments. Appreciate 
that.
    You know, you also mentioned a little bit about the Port of 
Dunkirk in your written testimony. Could you also expand about 
that? How many ports are actually--are we in danger of losing 
Harbor Maintenance Trust Fund moneys that are not used as 
intended?
    Mr. Weakley. Absolutely, nationwide. And I believe there is 
a port in South Carolina, Georgetown, which will probably be 
next to close, I would say, if it is a 2-year budget cycle, 
2012. On the Great Lakes, I have extreme concerns about St. 
Joe, Michigan; Holland, Michigan; Grand Haven, Michigan; 
Waukegan, Illinois. Anything that moves less than a million 
tons of cargo is zeroed out by the President's budget, which 
goes to Mr. Bishop's earlier point.
    If Congress can't right that wrong by passing this bill or 
by doing earmarks, we are going to end up with 2 ports that are 
maintained and probably 10 ports that are marginally 
maintained. And you just can't double your exports by reducing 
your number of ports.
    Mr. Cravaack. Well, thank you very much for the comments. I 
appreciate all of your testimony.
    I have 24 seconds left.
    And I appreciate you bringing this to our attention. I 
appreciate your passion in getting America moving again and 
getting jobs back in the United States. So thank you very much.
    And I yield back.
    Mr. Gibbs. Mr. Landry, do you have questions?
    Mr. Landry. Yeah, thank you, Mr. Chairman.
    Just a couple of points. One, I would like to again echo 
something that I had echoed about this piece of legislation, 
which, actually, Mr. Bishop raised, and I wasn't going to say 
anything, but the point of order is something that does concern 
me.
    You know, I am hellbent on making sure that we don't use 
this money for anything other than what the American people 
have--the American people, through Congress, has basically 
earmarked this money, if you want to say anything. And it is 
supposed to be used so that our ports and our harbors are 
maintained and that our trade operates sufficiently. And so, 
you know, that is a concern. And I think it is a valid one. I 
am glad that Mr. Bishop raised that, I wasn't the only one that 
had raised that.
    The second point is, I just wanted to ask, Ms. Brady, the 
port that you are at, it has an authorized depth, right?
    Ms. Brady. Yes. Right now, presently, the authorized depth 
is 12 feet and 150 feet wide, which it has never been----
    Mr. Landry. Do you think that if I vote to help dredge your 
port to a depth that is authorized by Congress that that is an 
earmark?
    Ms. Brady. No, I think it is a way to increase trade and 
commerce from our small town of 3,000 people, frankly, that 
goes to 30,000 in the summertime with the recreational fleet 
that joins it. And, right now, even the recreational fleet, the 
larger boats, for those that are lucky enough to have them, 
they are not able to come in because they draw 13, 14 feet, and 
it is just not possible.
    Mr. Landry. And, Mr. LaGrange, I mean, you know, if we have 
an authorized depth, if the Corps of Engineers has said, ``This 
is what depth channels and ports should be maintained,'' when 
Congress ensures that we maintain what they have already 
established, do you think that is an earmark?
    Mr. LaGrange. I don't think it is an earmark. However, I 
don't think the program has been administered properly. It is 
criminal. It is on the verge of criminal is what it is. I have 
never seen anything like it at all in my life.
    Mr. Landry. OK. All right.
    Mr. Weakley?
    Mr. Weakley. I would like to think of it as adult 
supervision.
    Mr. Landry. There you go. Good.
    All right. Thank you.
    Mr. Gibbs. Mr. Lankford?
    Mr. Lankford. That is probably the best thing I have heard 
all day.
    Mr. LaGrange, let me ask you a little bit, you mentioned 
earlier, you know, when you are down in New Orleans things are 
moving north. I am one of those areas. I am in central 
Oklahoma. But the Port of Catoosa and the Port of Muskogee are 
pretty essential to the Oklahoma economy. And the intermodal 
that is being established around Tulsa is essential to all of 
central America, because the trucks, the trains, everything 
begin to pick it up from there and it goes all over the country 
at that spot. So it is essential.
    The dredging is a big deal to us, to be able to keep that 
waterway going all the way from New Orleans all the way up into 
Tulsa. So are the locks and the dams. What would be your 
thoughts initially on something like this for the inland 
waterways, as well?
    Mr. LaGrange. Well, I think the inland waterway system, 
there is a plan, I think, that certainly Congressman Gibbs, I 
think, advocates, from what I understand, if that is correct. 
And it is a program that would stretch out over a number of 
years a mechanism of more efficiently funding our lock and dam 
system.
    It is one of the most bizarre things I have ever seen in my 
life, and I share your pain. I think the McClellan-Kerr, by the 
way, is a stroke of genius. I think it needs to be deepened. We 
have heavy lifts that we do in New Orleans that go into Tulsa 
Catoosa and also Muskogee, which are suffering right now. We 
can't get the degree of cargo that we should get there because 
of a lack of your water depth, not to mention the water depth 
at the mouth of the river.
    But at the end of the day, I just think that the system, 
the inland waterway system, has got to be funded. We have an 
Inner Harbor Lock on the Gulf Intracoastal Waterway which 
connects Texas, the Texas border, with Mexico to Florida and up 
the Atlantic seaboard. This lock was authorized when I was 
playing Little League baseball in 1954. That tells you 
something. It has yet to really get under way. It is 
restricted. It is only 650 feet in length, 75 feet in width, 
and it is only 30\1/2\ feet deep. The authorization is for 
1,200 feet by 110 feet by 36 feet. Yet we can't get off center 
with it.
    So I remember, as a young port director, coming up here for 
the very first time back in the late 1970s and early 1980s and 
testifying for the Olmsted Locks and Dam on the Ohio and then 
later the Chickamauga. The system--we are so far behind the 
eight ball that, unless this plan is implemented, we are going 
to have some really serious problems in getting the ones that 
are under way now--inflation is outweighing the appropriations. 
So we can't keep up with the game, so to speak.
    And, of course, the program that I allude to is the one 
that I mentioned a little bit earlier, and that is the capital 
development plan for the inland waterway system. If that is not 
developed, then it does us absolutely no good to clear the plug 
in the bathtub at the mouth of Mississippi River because we are 
all out of business.
    Mr. Lankford. Right. And when I talked specifically to the 
Army Corps leadership about this, their response is, well, we 
can either choose to dredge it or choose to fix the locks and 
the dams, but we can't do both. And so we will work on the 
locks and dams because those have got to work at any depth. And 
then we will come back and do the dredging at some other point, 
at some other time.
    The issue is, we really have to have both. If we end up 
with one and not the other, then we have lighter-weight ships 
that are coming in, we have less cargo that is moving, and we 
have a backup at the port or we don't have economic 
development.
    Mr. LaGrange. Absolutely.
    Mr. Lankford. I mean, there are a lot of companies lining 
up to do economic development in Oklahoma based around the 
depth of that port.
    Mr. LaGrange. Yeah. We have turned business away for 
Muskogee and Tulsa Catoosa because of the lack of water depth 
on the McClellan-Kerr.
    Mr. Lankford. OK. This is just going to be a general 
statement. Ms. Brady, when you talk to people that are paying 
to dredge the harbor, as they pay the excise fee, but they know 
full well this is being skimmed off and not used, is there a 
general comment that comes back about the Federal Government 
and our efficiency that you can actually quote on the 
microphone?
    Ms. Brady. You want to see how quickly I can think on my 
feet, huh?
    I just find it very surprising. I mean, obviously, Montauk 
is a small port. We are 3,300 people during the summertime and 
maybe about 2,100 in the winter. We would love a larger port. I 
am sure we could then bring in more----
    Mr. Lankford. But they are paying for the dredging that is 
not occurring. I mean, that becomes the issue.
    Ms. Brady. Yeah, I mean, I just don't understand the 
purpose as to why things have to get to the point where we wind 
up losing our economic base and/or someone gets hurt. I mean, I 
literally was a reporter 15 years ago in Montauk when one of 
the boats, because of inadequate dredging, was turned sideways 
in January. And, luckily, they got the guys off.
    I just don't see the reason for not doing what they have 
been legislated to do.
    Mr. Lankford. What has to be done. Thank you very much.
    And I yield back.
    Mr. Gibbs. Mr. Ribble, go ahead.
    Mr. Ribble. Well, good afternoon. I know it is getting a 
little bit long here, but I do have a couple questions, and I 
would like to start with Ms. Brady.
    Thank you for being here.
    You used the word ``shoaling.'' I am not familiar. Can you 
tell the committee a little bit about shoaling?
    Ms. Brady. Shoaling is, as a result of--and I am not quite 
as versed as some of these gentlemen--but shoaling is a result 
of wind and tide, so that our inlet in Montauk, which is 
supposed to be 150 feet wide and 12 feet deep, over time, with 
storms and tide, sand is forced into the inlet. And right now 
the Montauk inlet has almost, from underwater, an hourglass 
shape, where sand has gathered on both sides of the inlet. So 
the actual path that the boats can, as you said, thread through 
the eye of the needle through is very small.
    And in the summertime, because of this issue, I mean, they 
have some buoys out there. Army Corps has been there. 
Congressman Bishop has secured funds to do a dredging. We are 
all just basically holding our breath because we have 
recreational boats, we have guys that come from the city and 
rent a boat, you know, with an outboard. It is just--you know, 
we are just hoping nothing happens.
    Mr. Ribble. So when you talk about hoping something doesn't 
happen, you're talking about a safety concern; is that correct?
    Ms. Brady. Oh, absolutely.
    Mr. Ribble. Because the pathway is too narrow?
    Ms. Brady. Absolutely. And it has been--you know, if we had 
the ability to have a proper maintenance schedule on a, you 
know, yearly, biyearly basis so that the shoaling can at least 
be blown out, you know, it would be a huge help to us. I mean, 
when you can't bring your catch into port because of the 
shoaling, everyone hurts as a result.
    And for Shinnecock, it definitely hurts. For Shinnecock, 
which--and Hampton Bays--is probably a town of maybe 4,000, 
5,000 people, to drop the amount of fish from 9 million to 5.3 
million across the dock, that is huge, economically, to the 
area.
    Mr. Ribble. OK. Very good. Thank you.
    And I was just wondering if I could bring up a slide of Mr. 
Weakley's. Could you find the slide with the picture of the 
Great Lakes for me?
    There we go. Thank you.
    Mr. Weakley, as you look at this slide, you see a lot of 
different depths there. Like, Erie is at minus-12 inches. Grand 
Haven, like, minus-54. Green Bay, where I am from, minus-24.
    Does the problem change, necessarily? In other words, could 
a 12-inch problem in Erie be as bad as a 54-inch problem in 
Grand Haven? Is there a direct connection? And I am going 
someplace with this question.
    Mr. Weakley. Well, mathematically, the concept is tons per 
inch immersion. So a 12-inch reduction in depth for the exact 
same vessel has the exact same reduction in cargo.
    However, the local economic impact is significantly 
different. If you look at the power plants, perhaps, in 
Holland, Michigan, that will be shut down in 2 years if we 
don't dredge that entrance, it is catastrophic because some of 
those power plants don't have the ability to receive cargo by 
rail. It is preventing that power plant and that local 
community from attracting new business because they can't 
supply the power grid. Perhaps one of the most egregious is 
Indiana Harbor, which hasn't been dredged in 30 years. You are 
giving up feet.
    So, mathematically, the cargos are the same; the economic 
impact, significantly different, depending on the community and 
the cargo.
    Mr. Ribble. And that was my assumption. But, not knowing 
the business that well, I was curious.
    But given that information, how does the Corps of Engineers 
prioritize these ports? And are they doing it efficiently?
    Mr. Weakley. Well, I am going to choose my words carefully 
and say that, no, they are not. To their credit, they are doing 
the best they can in a system of scarcity. But it all depends 
on which side of the equation you are on. The Great Lakes is a 
system, so if they don't maintain the St. Mary's River, it is a 
controlling depth and we are not going to get cargo into Green 
Bay.
    Now, there are other trades that, if you are just on Lake 
Michigan, the St. Mary's River isn't as critical. But at the 
end of the day, we are all talking about American jobs and we 
are all talking about American efficiency. And we are all 
getting beat by foreign manufacturers and, in some cases, even 
foreign farmers. We need an efficient system, and the Corps is 
just not doing that.
    H.R. 104 potentially doubles the amount of money. In my 
opinion, it is enough money to take care of everybody. And we 
do away with the small port, large port, Great Lakes, gulf, 
east coast, west coast perceived competition. Because at the 
end of the day, I think it is a national program, it is a 
national problem, and it needs a national solution.
    Mr. Ribble. Would you call these shovel-ready jobs?
    Mr. Weakley. Absolutely. We had a $105 million project 
ready to go at the Soo Locks that was just cut by the stimulus.
    So if you look at--the Army Corps of Engineers spent less 
than 2 percent of their stimulus money on the Great Lakes. The 
heart of North American manufacturing continues to hemorrhage 
jobs.
    Mr. Ribble. Thank you, Mr. Weakley.
    And I yield back.
    Mr. Gibbs. Mr. Weakley, I just want to emphasize, in the 
Soo Locks up there, that was shovel-ready, wasn't it, and 
didn't get funding?
    Mr. Weakley. Absolutely. They had a $105 million ready to 
go. Could have cut contracts within 60 days. They had an $85 
million package ready to go. And we got nothing.
    Mr. Gibbs. Thank you to the panelists for coming. It has 
been very helpful.
    And we have to postpone the markup to a later date, so this 
concludes the hearing.
    And everybody have a good weekend.
    [Whereupon, at 1:13 p.m., the subcommittee was adjourned.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
